App. 1
TN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
DR. USHA JAIN AND MANOHAR JAIN,
Appellants,
CASE NO. 5018-1215
v.
DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH AND ROETZEL
AND ANDRESS, P.A.,
Appellees.
DATE: February 27, 2019
BY ORDER OF THE COURT:
ORDERED that Appellant, Manohar Jain’s Motion
for Rehearing, Motion for Rehearing En Banc, and
Request for Written Opinion, filed February 5, 2019,
is denied. Further, it is ORDERED that Appellant,
Dr. Usha Jain’s Motion for Rehearing, Rehearing En
Banc and Request for Written Opinion, filed
February 5,2019, is denied.
I hereby certify that the foregoing is (a
true copy of) the original Court order.

■‘SV
;?:§ t&v. k'|
Joanne p.

clerk

Panel: Judges Berger, Edwards, and Sasso (acting on
panel-directed motion(s)) En Banc Court (acting on
en banc motion)
Judge Eisnaugle recused from en banc consideration
Michael J. Furbush
cc:Thomas P. Wert

App. 2
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
DR. USHA JAIN AND MANOHAR JAIN,
Appellants,
v.

CASE NO. 5D18-1215

DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH AND ROETZEL
AND ANDRESS, P.A.,
Appellees.
DATE: January 22, 2019
BY ORDER OF THE COURT:
ORDERED that Appellees’ Motion for
Attorneys’ Fees, filed October 29, 2018, is granted
and the above-styled cause is hereby remanded to
the Circuit Court for Orange County, Florida,
pursuant to Florida Rule of Appellate Procedure
9.400(b), to determine and assess reasonable
attorney’s fees for this appeal. Further, it is
ORDERED that Appellant, Manohar Jain’s
Motion for Attorney’s Fees, filed
October 15, 2018, is denied.
I hereby certify that the foregoing is (a
true copy of) the original Court order.
4
'as
/

JOANNE P. SIMMONS, CLERK

T-4

\

V,,

'll

\'

Panel: Judges Berger, Edwards, and Jacobus

App. 3
Filing# 67683800 E-Filed 02/08/2018 10:46:06 AM
IN THE CIRCUIT COURT OF THE NINTH
- JUDICIAL CIRCUIT IN AND FOR
ORANGE COUNTY, FLORIDA
USHA JAIN, M.D. AND
MANOHAR JAIN,
CASE NO.: 2016-CA-7260-0
DIVISION: 33-2
Plaintiffs,
vs.

DAVID BARKER, MARY-BETH VALLEY,
MICHAEL FURBUSH and ROETZEL &
ANDRESS, L.P.A.,
Defendants.
ORDER GRANTING DEFENDANTS’ “MOTION TO
nTSMTSS PLAINTIFFS’ ‘2ND AMENDED’
COMPLAINT WTTH PREJUDICE”
THIS CAUSE comes before the Court for hearing
on January 26, 2018, on Defendants’, David Barker
(“Barker”) and Mary-Beth Valley (“Valley”), “Motion
to Dismiss Plaintiffs’ ‘2nd Amended’ Complaint with
Prejudice,” filed on October 13, 2017, and Plaintiff
Usha Jain’s Responses to Oppose Defendants’ Motion
to Dismiss, filed on January 22 and 23, 2018.
This Court, having reviewed the motions, the record,
considered the arguments presented, and being
otherwise fully advised in the premises hereby finds
and decides as follows:

App. 4
RELEVANT FACTS AND HISTORY
Dr. Usha Jain and Manohar Jain (,’Plaintiffs”)
filed their original pro se Complaint against
Defendants, Barker, Valley, Michael Furbush
(“Furbush”), and Roetzel & Andress L.P.S.
(“Roetzel”), on August 16, 2016.1
The factual allegations of the various causes of action
surround a dispute Plaintiffs,
,homeowners in the Isleworth community, had ‘with
their
community
homeowners’
association
(“Isleworth”) regarding Plaintiffs alleged failure to
keep their property in a condition as required by
Isleworth’s Declaration of Covenants. Defendants are
the attorneys and law firm that represented
Isleworth at that time. According to Plaintiffs, they
reached an agreement with Isleworth prior to filing
the present suit. Consequently, Isleworth is not a
party to this action. While attempting to resolve this
matter with Isleworth, Plaintiffs discovered a letter
from Barker, an attorney employed by the Roetzel
law firm, in their Isleworth tile. The letter advised
that their property was not in compliance with the
Declaration of Covenants and unless the violations
were remedied, a maximum tine of $1,000.00 was
forthcoming.’ Plaintiffs maintain that although this
letter states it was sent via certified mail, they never
received it.
i The docket indicates that the Plaintiffs proceeded pro se until
October 3, 2017, when attorney Erich Schuttauf appeared as
counsel for “Defendants) MANOHAR JAIN.” As Mr. Jain is a
Plaintiff in this action, it appears the Notice of Appearance
contained a scrivener’s error.

App. 5
Plaintiffs claim that due to Defendants’ willful
actions they have been harmed in numerous ways.
Plaintiffs claim that having to fight the fraudulent
allegations of Defendants resulted in loss of their
reputation in the community, financial losses due to
time away from their businesses, and mental
anguish.
In Count I of the original Complaint, Plaintiffs
claim that an alleged certified letter, found in their
Isleworth file, was never sent to them by Defendants.
Plaintiffs maintain that this letter was falsely placed
in their Isleworth tiled by Defendants. In Count II,
which is very similar to Count I, Plaintiffs claim that
Defendants committed a fraudulent falsification of
documents. In Count III, Plaintiffs allege that
Defendants acted unethically and were negligent due
to their misrepresentation of the status of Plaintiffs’
Isleworth account. In Count IV, Plaintiffs claim that
Defendants breached the implied covenant of good
faith and fair dealing based upon Defendants’
contractual agreement with Isleworth. In Count V,
Plaintiffs maintain that Defendants violated section
720.303(5), Florida Statutes, when Defendants failed
to provide a timely response to Plaintiffs’ requests for
Isleworth’s records. Finally, in Count VI, Plaintiffs
allege that Defendants were unjustly enriched by the
attorneys’ fees received from Isleworth.

2 The Plaintiffs admitted that they were never fined by
Isleworth.

App. 6

On September 7, 2016, the Defendants tiled their
first Motion to Dismiss. In this Motion, Defendants
maintained that Counts I, II, III, IV, and VI should
be dismissed for failure to state a cause of action for
which relief can be granted. In particular,
Defendants claimed that the Complaint failed to
provide a short and plain statement of the ultimate
facts showing that the pleader is entitled to relief.
Fla. R. Civ. P. L 11 0. Defendants also contended
that Plaintiffs cannot maintain a claim against them
because section 720.303(5), Florida Statutes, applies
to associations and not to the associations’ agents or
attorneys. Defendants further argued that Furbush,
who at the time was the registered agent of Roetzel,
had only limited communications with Plaintiffs in
an attempt to resolve this issue with the other
Defendants, and therefore had nothing to do with the
pre-suit issues raised by Plaintiffs.
This Court conducted a hearing on October 27,
2016. On November 1, 2016, the Court entered an
Order dismissing with prejudice Counts I and V and
the claims against Furbush. The remaining counts
were dismissed without prejudice.
On November 20, 2016, Plaintiffs filed their
first Amended Complaint. On December 2, 2016,
Defendants Roetzel, Barker, and Valley filed their
second Motion to Dismiss.’ Defendants alleged that

j It should be noted that while this Motion was pending,
Roeztel and Plaintiffs came to a resolution that all claims
against Roetzel would be dismissed with prejudice. This Court
approved the joint stipulation of Plaintiffs and Roetzel and all
claim against Roetzel were dismissed with prejudice on March
12, 2017.

App. 7
the Amended Complaint, like the original, violated
Rule 1.110, Florida Rules of Civil Procedure, and
that Plaintiffs have again failed to state a cause of
action for which relief can be granted. In Count I,
Plaintiffs claimed that Defendants had a duty to
produce true records on behalf of Isleworth and
breached that duty by placing copies of an
undelivered letter in the Plaintiffs’ Isleworth file. In
Count II, Plaintiffs contended that Defendants were
unjustly enriched because they continued to collect
money from Isleworth and wrongfully retained the
benefits of those monies. In Count III, Plaintiffs
claimed that Defendants engaged in unethical
conduct and were guilty of negligence and
misrepresentation. Lastly, in Count IV, Plaintiffs
alleged a breach of the implied covenant of good faith
and fair dealing.
A hearing was held on Defendants’ Motion on
June 5, 2017. On June 12, 2017, this Court
dismissed the Amended Complaint without
prejudice. The Court determined that Plaintiffs had
again failed to state a cause of action upon which
relief could be granted. 4
On July 12, 2017, Plaintiffs filed their Second
Amended Complaint (third Complaint). On July 24,
2017, Defendants moved to dismiss claiming that
this Complaint contained virtually the same
material factual allegations as the prior Complaints.
4 At the hearing, there were other motions before the
Court regarding Furbush, attorneys’ fees pursuant to Rule
1.525(1) Rules of Civil Procedure, and sanctions pursuant to
section 57.1 05( I), Florida Statutes. Those motions and
holdings will not be addressed as they are not relevant to the
present disposition.

App. 8
On September 26, 2017, before a hearing had been
held on the Defendant’s Motion, Plaintiffs filed a
fourth complaint, titled “2nd Amended Complaint
and Demand for Jury Trial.” On October 13, 2017,
Defendants filed the present Motion to Dismiss. The
Defendants stated:
Defendants ... are moving to dismiss the
Fourth Complaint with prejudice because Plaintiffs
cannot possibly allege a cause of action based upon
the facts alleged in four separate attempts. We have
simply reached a point in this litigation when Barker
and Valley [the Defendants] should be entitled to be
relieved from the time .effort, energy, and expense of
defending themselves against Plaintiffs vexatious
claims.
Motion to Dismiss, Pg. 1.
On January 26, 2018, a hearing was held on
Defendants’ Motion.? sThis Order follows: 6

5
The hearing was held before Judge Kevin B. Weiss,
assigned to Division 33 as of January 2018. This case was
previously before Judges Higbee, Myers and White.
6
Also addressed at this hearing, was Plaintiffs attempt to
default Defendants by claiming Defendants had not filing a
timely request for extension of time in which to respond. The
Court denied Plaintiffs’ Motion for Default and deemed
Defendants’ present Motion to Dismiss as timely filed.

App. 9
STANDARD OF REVIEW
In considering a motion to dismiss, the Court
is constrained to a consideration of the four comers
of the pleading, including any exhibits attached
thereto, and is required to take as true all of the
Plaintiffs’ well-pled factual allegations. See Cyn-co
v. Lancto; 677 So. 2d 78, 79 (Fla. 2d DCA 1996).
However, the Court need not accept internally
unwarranted
claims,
factual
inconsistent
deductions, or mere legal conclusions of a plaintiff.
See Shands Teaching Hasp. And Clinics, Inc. v.
Estate of Lawson, 175 So. 3d 327, 331-32 (Fla. 1st
DCA 2015) (citing WR Townsend Contracting Inc. v.
Jensen Civil Const., Inc., 728 So. 2d 297,300 (Fla. 1st
DCA 1999). Speculative allegations unsupported by
ultimate facts or contradicted by other facts alleged
in the complaint are insufficient to withstand a
motion to dismiss. See McCall v. Scott, 199 So. 3d
359, 366 (Fla. 1st DCA 2016).
ANALYSIS AND RULING
In the Motion to Dismiss currently before the
Court, the Defendants contend that Plaintiffs, in
their “2nd Amended” Complaint (actually their
fourth complaint), have pleaded virtually the same
underlying facts and alleged the same causes of
action based upon those facts as in their three
previous Complaints. Defendants request that the
“2nd Amended” Complaint be dismissed with
prejudice as Plaintiffs have failed to adequately
allege any viable cause of action based upon these
facts. Upon review of the present complaint, its
predecessors, and the record, this Court agrees.

App. 10
While the policy in Florida is to liberally allow
amendments to pleadings where justice so requires,
a trial judge in the exercise of sound discretion may
deny further amendments where a case has
progressed to a point the liberality ordinarily to be
indulged has diminished. Alvarez v. DeAguirre, 395
So. 2d 213, 216 (Fla. 3d DCA 1981) (internal
citations omitted). “Although it is highly desirable
that amendments to pleadings be liberally allowed so
that cases may be concluded on their merits, there is
an equally compelling obligation on the court to see
to it that the end of all litigation be finally reached.”
Brown v. Montgomery Ward & Co., 252 So. 2d 817,
819 (Fla. Lst DCA 1971). See also Noble v. Martin
lyfem’[ Hasp. Ass’n, Inc., 710 So. 2d 567,568-569
(Fla. 4th DCA 1997) (“There comes a point in
litigation where each party is entitled to some
finality. “).
Dismissal with prejudice, after three attempts
to amend, is generally not an abuse of discretion.
Dimick v. Ray, 774 So.2d 830, 833 (Fla. 4th DCA
2000); Myers v. Highway 46 Holdings, LLC., 65 So.
3d 58,61 (Fla. 5th DCA 2011) (affirming dismissal
with prejudice after the third attempted pleading
failed to assert or any new facts or arguments). The
relevant inquiry is whether “allowing the
amendment would prejudice the opposing party, the
privilege to amend has been abused, or amendment
would be futile.” Cedar Mountain Estates, LLC v.
Loan One, LLC, 4 So. 3d 15, 16 (Fla. 5th DCA 2009)
(quoting State Farm Fire & Cas. Co, v: Fleet Fin.
Corp., 724 So. 2d 1218, 1219 (Fla. 5th DCA 1998).
Proposed amendments are futile when they are not
pled with sufficient particularity or are insufficient
as a matter of law. Thompson v. Bank of NY, 862 So.

App. 11
insufficient as a matter of law when they are
conclusory and lack any real allegations of ultimate
fact. Thompson, 862 So. 2d at 770.
The Court finds that Plaintiffs” allegations in
this fourth complaint remain conclusory and fail to
provide ultimate facts upon which any of their causes
of action could possibly be sustained. After four
attempts, the allegations remain the effectively the
same. Plaintiffs have provided no additional facts
that support any viable causes of action. It is readily
apparent that further attempt to amend these claims
would be futile. Moreover, “[tjhere is simply a point
in litigation when defendants are entitled to be
relieved from the time, effort, energy, and expense of
defending themselves against seemingly vexatious
claims.” Kohn u, City of Miami Beach, 611 So. 2d
538, 539 (Fla. 3d 1992). While the Court recognizes
that both Plaintiffs were pro se litigants when the
original Complaint was filed, “a patty’s self­
representation does not relieve the party of the
obligation to comply with any appropriate rules of
civil procedure.” Id.
In accordance with the foregoing, it is hereby
ORDERED AND ADJUDGED that
Defendants’ “Motion to Dismiss Plaintiffs’ ‘211d
1.
Amended’ Complaint with Prejudice,” filed on
October 13, 2017, is GRANTED.
Plaintiffs shall take nothing by this action and
2.
Defendants shall go hence without day.
Plaintiff Usha Jain’s request for leave to
3.
amend her complaint in “Plaintiff Dr, Usha
Jain’s Motion to Notify the Court that the
Plaintiffs Were Not Provided with Binder
with Index Tabs for the Hearing on the
Motion to Dismiss on January 26. 2018 and
Plaintiff Dr. Jain Also Notifies that Plaintiffs
Amended Complaint Filed on January

App. 12

4.

5.

12,2018 is Moot Now,” filed on January
28,2018. is DENIED.
Plaintiff Manohar Jain’s “Motion for With
drawal of His Amended Complaint,” filed
by counsel on January 29. 2018, is GRANTED.
The Court reserves jurisdiction regarding enti
tlement and amount of attorneys’ fees and
costs, if applicable, including but not limited to
any sanctions related to Judge White’s
Order dated October 20, 2017.

DONE AND ORDERED in Chambers, at Orange
County, Florida on this day of Feb., 2018
KBVIN'B. W£1S§~CIRCUIT JUDGE

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was
filed with the Clerk of the Court this 8th day of Feb.
,2018 by using the Florida Courts E-Filing Portal
System. Accordingly, a copy of the foregoing is being
served on this day to all attorneys/interested parties
identified on the ePortal Electronic Service List, via
transmission of Notices of Electronic Filing
generated by the ePortal System.
I HEREBY CERT£FY that a copy of the foregoing
was furnished on this 8th day of Feb., 2018 by U.S.
Mail to:

App. 13

Usha Jain, Pro Se
4800 S. Apopka-Vineland Rd. Orlando, FL 32819

Michael J. Furbush, Pro Se
Dean, Mead, Egerton, Bloodworth, Capouano &
Bozarth, P.A.
420 S. Orange Avenue, Suite 700 Orlando, FL 32801
Manohar Jain, Pro Se
4800 S. Apopka-Vineland Rd. Orlando, PL 32819
Erich E. Schuttauf, Esq. Schuttauf Law Group, PA
3732 Silver Lake Drive Kissimmee, FI”, 34744

r\
x -

I./>
S>r
i •

n

§

App. 14
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
MANOHAR JAIN, AS TRUSTEE, AND ITS
SUCCESSORS OR SUCCESSOR TRUSTEES
UNDER THE MANOHAR JAIN TRUST DATED
JULY 1, 2000 AND USHA JAIN, AS TRUSTEE,
AND ITS SUCCESSORS OR, ET AL.
Appellants,
CASE NO. 5D18-2033
v.
BAY HILL PROPERTY
OWNERS ASSOCIATION,
INC.,
Appellee.
DATE: April 03, 2019
BY ORDER OF THE COURT:
ORDERED that Appellants’ Motion for
Rehearing, Motion for Reconsideration En Banc, and
Request for Written Opinion, filed March 12, 2019, is
denied.
I hereby certify that the foregoing is
7^'

A

';A
!>i

P;SIMM©N§a OUEfiK

(a true copy of) the original Court order.
Panel: Judges Evander, Lambert, and Harris (acting
on panel-directed motion(s)) En Banc Court
(acting on en banc motion)
Judge Eisnaugle recused from en banc consideration
cc:
Mya M. Hatchette C. Andrew Roy Erich Schuttauf

App. 15
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
MANOHAR JAIN, AS TRUSTEE, AND ITS
SUCCESSORS OR SUCCESSOR TRUSTEES
UNDER THE MANOHAR JAIN TRUST DATED
JULY 1, 2000 AND USHA JAIN, AS TRUSTEE,
AND ITS SUCCESSORS OR, ET AL.
Appellants,
CASE NO. 5D18-2033
v.
BAY HILL PROPERTY OWNERS
ASSOCIATION, INC.,
Appellee.
DATE: February 26, 2019
BY ORDER OF THE COURT:
ORDERED that Appellee’s Motion for
Attorneys’ Fees and Costs, filed October 29, 2018, is
granted and the above-styled cause is hereby
remanded to the Circuit Court for Orange County,
Florida, pursuant to Florida Rule of Appellate
Procedure 9.400(b), to determine and assess
reasonable attorney’s fees for this appeal.
Further, it is
ORDERED that Appellants’ Motion for
Attorney’s Fees, filed October 29, 2018, is denied.
I hereby certify that the foregoing is (is a true copy of)
the original Court order
to

r Simmons, clerk.

H
•*? <

App. 16
Filing #73659833 E-Filed 06/15/2018 04:49:29 PM
IN THE CIRCUIT COURT OF THE NINTH
JUDICIAL CIRCUIT IN AND FOR ORANGE
COUNTY, FLORIDA
BAY HILL PROPERTY OWNERS
ASSOCIATION, INC.,
CASE NO.: 2015-CAPlaintiff,
008175-0
DIVISION: 33-2
vs.

MANOHAR JAIN, as Trustee, and its Successors or
successor trustees under the Manohar Jain Trust
dated July 1, 2000 and USHA JAIN, as Trustee, and
its successors or Successor trustees under the Usha
Jain Trust dated July 1, 2000, Defendants.
/

ORDER GRANTING IN PART “PLAINTIFF’S
MOTION TO ENFORCE FINAL JUDGMENT AND
FOR CONTEMPT” and DENYING “DEFENDANTS’
VERIFIED 1.540(h) MOTION TO VACATE
JUDGMENT OF 2/25/16.” “MOTION FOR
REHEARING TO VACATE AND INVALID
DEFAULT JUDGMENT DUE TO UNAUTHORIZED
COMMUNICATION AND EXISTENCE OF
MERITORIOUS DEFENSE OF THE
DEFENDANTS.” “SUPPLEMENT TO MOTION
FOR. REHEARING TO VACATE AN INVALID
DEFAULT JUDGMENT DUE TO UNAUTHORIZED
COMMUNICATIONS AND EXISTENCE OF
MERITORIOUS DEFENSE OF THE

App. 17
DEFENDANTS.” and “MOTION FOR LEAVE TO
FTEE COUNTERCLAIM”
THIS CAUSE came before the Court for hearing on
May 18, 2018, on “Plaintiffs Motion to Enforce Final
Judgment and for Contempt,” filed on September 21,
2016 and “Defendant’s Verified 1.540(b) Motion to
Vacate Judgment of 2/25/16,” filed on February 24,
2017. It should be noted, that prior to and following
the hearing, Defendants filed multiple additional
motions and supplemental exhibits. This Court,
having reviewed the motions, the record, considered
the arguments presented, and being otherwise fully
advised in the premises hereby finds and decides as
follows:
REEEVANT FACTS AND HISTORY
On September 1, 2015, Bay Hill Property
Owners Association (“Plaintiff’) filed the present
action against Manohar Jain (“Defendant”), as
Trustee under the Manohar Jain Trust, claiming
that Defendant had violated Article 9 of the
Covenants by failing to maintain and landscape the
lawn, remove weeds, clean, repair, or paint the home
at Defendant’s property, located at 5559 Brookline
Drive, Orlando, Florida 32819 (“’Property”). Plaintiff
claims that on or about July 21, 2015, a Statutory
Offer to Participate in Pre-Suit Mediation had been
served on Defendant but Defendant refused to
provide any dates for mediation to take place.
Accordingly, Plaintiff sought a mandatory injunction
and final judgment requiring Defendant to maintain
and landscape the Property, remove weeds and
replace dead sod, remove weeds from landscaping
beds, make repairs, paint, and clean the home.

App. 18
On September 21, 2015, Plaintiff filed an Amended
Complaint to include Mrs. Usha Jain as a party. On
September 29, 2015, Defendant and Usha Jain
(collectively “Defendants”) filed their intent to appear
pro se. Although counsel had filed Defendants’
answer on October 29, 2015, Defendants and counsel
later moved for counsel’s withdrawal. In their
motion, filed on November 4, 2015, Defendants
stated that they decided to proceed pro se because it
was too difficult to explain the history of the case to
counsel. On November 2, 2015, Defendants moved
for sanctions pursuant to Florida Rule of Civil
Procedure 57.105.
On December 14, 2015, Plaintiff moved for
Final Summary Judgment and filed a Notice of
Hearing for February 25, 2016. On December 14,
2015, Defendants filed a Second Motion for Sanctions
pursuant to Florida Rule of Civil Procedure 57.105.
On December 18, 2015, Plaintiff filed an Amended
Notice of Hearing for February 24, 2016. On
December 21, 2015, Defendants filed their Motion to
Dismiss the Complaint alleging that Plaintiff failed
to coordinate mandatory presuit mediation. They
also filed a motion asking the Court for help in
scheduling hearings, claiming that the hearing set
for Plaintiffs Motion for Summary Judgment had
been set unilaterally by Plaintiff. On January 14,
2016, the Court entered an Order scheduling a
hearing and directing Plaintiff to respond to
Defendants’ motion. Plaintiff filed its responses on
January 28, 2016.
On February 24, 2016, the Court held a
hearing on Plaintiffs Motion for Summary
Judgment. The Defendants did not appear. The
Court granted Plaintiffs Motion and further awarded

App. 19
attorneys’ fees and costs. Final judgment was
entered on February 25, 2016.
On February 26, 2016, the Court denied the
Defendants’ Ex-Parte Motion for Rehearing. On
February 29, 2016, Defendants filed a motion to
request that the Court correct the aforementioned
order. On March 2, 2016, Defendants filed a motion
to get the Court to help them determine how to
follow the final judgment order. On March 3, 2016,
Defendants filed their Motion for Recusal. On March
4, 2016, Judge Rest granted the Defendants’ Motion
for Recusal.
On March 7, 2016, Plaintiff filed a Motion for
Attorneys’ Fees. That same day, Defendants filed a
motion asking the Court to vacate all prior orders of
the predecessor judge. A hearing on the motion was
set for July 15, 2016. At the hearing, the Court
advised Defendants to retain counsel because,
pursuant to EHQF Trust, v. S&A Partners, Inc., 947
So. 2d 606 (Fla. 4th DCA 2007), a trust is required to
have a licensed attorney represent its interests in
litigation. On July 22,2016, the Court entered its
written Order advising the Defendants that they had
thirty days to retain counselor provide an affidavit
showing good cause if more time was needed.
On August 1, 2016, Defendants filed a motion
requesting to be allowed to continue pro se, without
an attorney. The Defendants stated that they had
consulted with the attorney who created their trust
and were advised that the trust did not require
representation. Defendants subsequently claimed
that the trust had been dissolved and asked again to
represent themselves. They also sought a stay in the
proceedings. On September 8, 2016, a hearing was
held on Defendants’ motions wherein the Court

App. 20
denied them all. The Court’s written Order was
entered on September 16, 2016.
On September 13, 2016, Defendants filed an
emergency motion to seek additional time to retain
counsel. On September 14, 2016, Defendants filed
another motion asking the Court for an extension.
On September 21, 2016, Plaintiff filed a motion
to enforce the Final Judgment and for contempt. On
September 22, 2016, counsel for Defendants filed a
Notice of Appearance. On February 24, 2017, a
hearing was held on Plaintiffs Motion to Enforce the
Final Judgment and Defendants’ Motions to Vacate
all of the prior orders. On May 2, 2018, the Court
entered its written order denying Defendants’
motions without prejudice.
After the February 24, 2017 hearing, Defendants
filed another motion, this time seeking to vacate the
Final Judgment pursuant to Florida Rule of Civil
Procedure 1.540(b). A hearing, wherein the Court
reserved judgment, was held on May 18, 2018, on
Plaintiffs Motion to Enforce the Final Judgment and
Defendants’ latest Motion to Vacate the Final
Judgment. That same day, Defendants filed a Motion
for Rehearing. On June 8, 2018, Defendants filed a
Motion for Leave to file a Counterclaim. This Order
follows.
ANAL YSIS AND RULING
On February 24, 2017, Defendants filed
“Defendants’ Verified 1.540(b) Motion to Vacate
Judgment of 2/25/2016.” Defendants maintain that
because they were not represented by counsel, all of
the actions taken, including the final judgment, are
invalid. See EHQF Trust v. S&A. Capital Partners,
Inc., 947 So. 2d 606 (Fla. 4th DCA 2007) (holding
that “a trustee cannot appear pro se on behalf of the
trust, because the trustee represents the interests of

App. 21
others and would therefore be engaged in the
unauthorized practice of law”). They claim that
Plaintiffs counsel and the Court should have advised
them at the beginning of the litigation that the JainTrust needed representation. Defendants contend
that pursuant to Florida Rule of Civil Procedure
1.540(b)(1), which provides in pertinent part that
“the court may relieve a party ... from a final
judgment ...for ... mistake, inadvertence, surprise or
excusable neglect,” the final judgment must be
vacated. Defendants further claim that any neglect
on their part in obtaining counsel was excusable
because Usha Jain was recovering from injuries.
The Court finds these arguments unpersuasive.
“[Pjrior to final judgment, a successor judge has the
power to vacate or modify a predecessor’s
interlocutory rulings ... “ Hull & Co., Inc. v. Thomas,
834 So. 2d 904, 906 (Fla. 4th DCA 2003). However,
“[tjhe general rule is that a successor judge cannot
review, modify, or reverse on the merits and on the
same set of facts the final orders of a predecessor,
unless there exists some special circumstances such
as mistake or fraud upon the court.” Blitch v. Owens,
519 So. 2d 704, 706 (Fla. 2d DCA 1988). While
Florida Rule of Civil Procedure 1.540(b)( 1) does
allow the court to vacate a final judgment on grounds
of mistake, inadvertence, surprise or excusable
neglect, “the rule does not contemplate relief under
circumstances such as these where the moving party
has merely suffered prejudice as a result of his own
inaction.” Allstate Ins. Co. v. Glisano, 722 So. 2d
216, 218 (Fla. 2d DCA 1998).
The failure of a party to take the required steps
necessary to protect its own interests, cannot,
standing alone, be grounds to vacate judicially

App. 22
authorized acts to the detriment of other innocent
parties. The law requires certain diligence of those
subject to it, and this diligence cannot be lightly
excused. The mere assertion by a party to a lawsuit
that he does not comprehend the legal obligations
attendant to [the pending legal action] does not create
a sufficient showing of mistake, inadvertence,
surprise or excusable neglect to warrant the vacating
of a final judgment.

John Crescent, Inc. v. Schwartz, 382 So. 2d 383,
38586 (Fla. 4th DCA 1980). Moreover, errors of
judgment or tactics are not the type of errors for
which Rule 1.540(b)(1) may be used to provide relief.
See Cottrell v, Taylor, Bean, Whitaker Mortg. Corp.,
198 So. 3d 688, 691 (Fla. 2d DCA 2016).
In the instant case, Defendants were initially
represented by counsel. However, after counsel had
filed Defendants’ Answer, Defendants moved for the
withdrawal of counsel. They chose to continue pro se
because they felt their case was too difficult to
explain to an attorney and that justice could only be
achieved with their firsthand information. After
Final Judgment had been entered, Defendants
initially sought to have the Final Judgment vacated
because it had not been properly noticed and
Plaintiff had unilaterally set the hearing. On
February 26, 2016, the Court denied the Motion
finding that the hearing had in fact been properly
noticed. Furthermore, the review of the record shows
that Defendants were aware of the hearing as they
had contacted the J.A. (Judicial Assistant) and
opposing counsel multiple times regarding the
scheduling and the subject matter of the hearing.
After the predecessor judge recused himself,
Defendants moved to have all of his orders vacated,
this time alleging that the judge had wrongfully

App. 23
conducted the summary judgment hearing. At the
hearing on Defendants’ motion, the Court advised
Defendants that they needed to retain counsel to
represent the Jain Trust and had thirty days to do
so. Instead, Defendants dissolved the Jain Trust and
moved to continue pro se. The Court denied the
Motion.
It was not until Plaintiff moved for enforcement
of the Final Judgment did Defendants retain ounsel.
Now Defendants are seeking to have the final
judgment vacated under Rule 5 .140(b)( 1) because
they claim they did not understand that the trust
needed to be represented by counsel and were never
advised as such.
Defendants made the tactical decision to
proceed pro se because they believed they could
handle the litigation better than an attorney. They
took active steps to continue pro se and asked the
Court multiple times to continue to be allowed to do
so. They cannot now use the fact that they were
unrepresented by counsel as a reason to vacate the
predecessor judge’s Final Judgment. See Cottrell v.
Taylor, Bean, Whitaker Mortg. Corp., 198 So. 3d at
691. Furthermore, Rule I.S40 “does not have as its
purpose or intent the reopening of lawsuits to allow
parties to state new claims or offer new evidence
omitted by oversight or inadvertence.” Smiles v.
Young, 271 So. 2d 798, 802 (Fla. 3d DCA 1973). If
the Defendants felt aggrieved by the Final
Judgment, they should have timely appealed it
after their Motion for Rehearing was denied. See
Webb v. Webb, 729 So. 2d 430 (Fla. 5th DCA 1999).

App. 24
In accordance with the foregoing, it is hereby
ORDERED AND ADJUDGED that:
1. “Plaintiffs Motion to Enforce Final Judgment
for Contempt,” filed on September 21,
and
2016, is GRANTED WITH PREJUDICE, to the
extent that Defendants are ordered to comply
with the February 2S, 201S Final Judgment.
2. “Defendants’ Verified 1.540(b) Motion to Vacate
Judgment of 2/25116,” filed on February 24, 2017,
“Motion for Rehearing to Vacate and Invalid
Default Judgment Due to Unauthorized
Communication and Existence of Meritorious
Defense of the Defendants,” filed on May 18,
2018, and “Supplement to Motion for Rehearing
to Vacate an Invalid Default Judgement Due to
Unauthorized Communication and Existence of
Meritorious Defense of the Defendants,” filed on
May 2S, 2018, “Motion for Leave to File
Counterclaim,” filed on June 8, 2018, are
DENIED WITH PREJUDICE.
3. Any additional pending pleadings filed by
Defendants that have not been specifically
addressed in this Order are DENIED WITH
PREJUDICE.
4. This Court shall retain jurisdiction for the
issuance of such further Orders and other relief
as is necessary and proper, including but not
limited to, Plaintiffs supplemental Motion for
Attorneys’ Fees and Costs.
5. The parties shall agree to a mutually convenient
timeframe within which Defendants will comply
with the provisions enumerated in the Final
Judgment. If the parties reach an impasse and
are unable to agree to a reasonable solution, the

App. 25
Court may take appropriate post-judgment action
to enforce the Final Judgment including but not
limited to the appointment of a neutral third
party (at the Defendants’ expense) to facilitate
Defendants’ efforts to bring the Property into
compliance, the award of additional attorney’s
fees and costs, or writs of bodily attachment with
a purge provision.
DONE AND ORDERED in Chambers, at Orange
KEVIN S. WEISS'
CIRCl!ITJW»r,E

County, Florida on this 15 day of June, 2018

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
with the Clerk of the Court this 15th day of June
2018 by using the Florida Courts E-Filing Portal
System. Accordingly, a copy of the foregoing is being
served on this day to all attorney(s)/interested
parties identified on the e-Portal Electronic Service
List, via transmission of Notices of Electronic Filing
generated by the e-Portal System.

r%V% A

n

............i.<v ............................ A-N'

Jill Gijy, Judicial AssisuiftU
W

....y

*

App. 26
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO FILE MOTION
FOR REHEARING AND DISPOSITION THEREOF IF
FILED AL.,
Case No. 5D18-1215
Appellants
V.
DAVID BARKER, MARY BETH VALLEY, MICHAEL FURBUSH AND ROETZEL AND ANDRESS, P.A.,
Appellees.
Decision filed January 22, 2019
Appeal from the Circuit Court
for Orange County,
Kevin B. Weiss, Judge.
Dr. Usha Jain, Orlando, pro se.
Erich E. Schuttauf, of Schuttauf Law
Group, P.A., Kissimmee, for Appellant, Manohar Jain.
Thomas P. Wert, of Dean, Mead, Egerton, Bloodworth,
Capouano & Bozarth, P.A., Orlando, for Appellees, David
Barker and Mary Beth Valley.
No Appearance for Other Appellees.
PER CURIAM.
AFFIRMED.
BERGER and EDWARDS, JJ., and JACOBUS, B.W.,
Senior Judge, concur.

App. 27
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
MANOHAR IAIN, AS TRUSTEE, AND ITS
SUCCESSORS OR SUCCESSOR TRUSTEES UNDER ‘iHE
MANOHAR JAIN TRUST DATED JULY 1, 2000 AND
USHA JAIN, AS TRUSTEE, AND ITS SUCCESSORS OR, ET
AL.,
CASE NO. 5D18-2033
Appellants;
V.
BAY HILL PROPERTY OWNERS ASSOCIATION, INC.,
Appellees.
DATE: February 26, 2019
BY ORDER OF THE COURT:
ORDERED that Appellee’s Motion for Attorneys’ Fees and
Costs, filed October 29, 2018, is granted and the above-styled
cause is hereby remanded to the Circuit Court for Orange
County, Florida, pursuant to Florida Rule of Appellate Proce­
dure 9.400(b ), to determine and assess reasonable attorney’s
fees for this appeal. Further, it is
ORDERED that Appellants’ Motion for Attorney’s Fees, filed
October 29, 2018, is denied.
I hereby cef V imt tne foretjoimj i&
(a feme copy of) ffts ottpfattl CkwMf ordef.
:<

;.yr ,,
Panel: Judges Evander, Lambert, and Harris
cc: Mya M. Hatchette C. Andrew Roy Erich Schuttauf
Orange Cty Circuit Ct Clerk (2015-CA-8175-O)

t.

